.. q                                        -:.'       "'"" "   \- ,
" .
                                                                  ' ,




               California Operation Restore Trust

                         Steering Committee





                    MEDICARE HOME HEALTH:

                Eliminating Fraud, Abuse, and Waste





                                         SERVICES.




                              '0



                                         C(la



       OEI-09-96-00290
                                   JUY          1996
                                                  "'
                                                " .                             ''




                       OFFCE OF INSPECTOR GENRA

The mision of the Offce of Inpector General (DIG), as mandated by Public Law 95-452, as
amended, is to protect the integrty of the Departent of Health and HumanServce ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs.
statutory mission is carred out through a nationwide network of audits , investigations , and
inpections conducted by three DIG operating components: the Offce of Audit Servce, the
Offce of Investigations , and the Offce of Evaluation and Inpections. The DIG also inorm
the Secretary of HHS of program and management problems and recmmends courses to
correct them.
                           OFFCE OF AUDIT SERVICE
The DIG's  Offce of Audit Servce (OAS) provides all auditing servce for HHS , either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examie the performance of HHS programs and/or ' its grantee and coiltractorsm'
carrg out their respective responsibilties and are intended to provide, abuse
                                                                         independent
                                                                               and, ,
assessments of HHS programs and operations    in order to reduce waste
mimanagement and to promote ecnomy and         effciency throughout the  Department

                           OFFCE OF, INTIGATIONS
The DIG's   Offce of Investigations    (01) conducts crial,    civil, and administrative
investigations of allegationS of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrchment by providers. The investigative effort of 01 lead to criminal convictions
admitrative sanctions, or civil money penalties. The 01 also oversee State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFCE OF EV ALUATIONAN INSPECTONS
The DIG's  Offce of Evaluation and Inpections (DEI) conducts short-term management and
program evaluations (called inpections) that focus on isues of concern to the Department,
the Congress , and the public: The fidings and recmmendations contained in these inpection
report generate   rapid, accurate, and up-tq-date inormation on the effciency, vumerabilty,
and effectiveness of deparmenta program.




 For additional copies of this report, pleae contact the San Francisco offce at (415) 437- 7.900.
California Operation Restore Trust

       Steering Committee





    MEDICARE HOME HEALTH:

Eliminating Fraud, Abuse, and Waste





                           SERVICEo
                   ~t-\'




              4-

                    ~1t~C(la




                   JUY 1996
                              INTRODUCTION
PUROSE
This report summarizes the findings and recommendations of a Californa Operation Restore
Trust meeting in which focus group participants discussed fraud, abuse, and waste in the
Medicare home health benefit.

BACKGROUN

Operation Restore Trust (ORT) is a two-year initiative designed to address Medicare fraud
waste , and abuse in nursing homes , durable medical equipment , and home health in the five
states with the largest Medicare populations (Californa , Texas, New York , Florida , and
Ilinois). The ORT is unique in that offcials from all agencies involved in elimnating fraud
waste , and abuse have been given the necessary tools and the mandate to work together as a
unified team. Officials from the Health Care Financing Admnistration (HCFA), the Offce of
Inspector General (OIG), the Administration on Aging, and the Departent of Justice are the
principal participants in the ORT intiative.

To help identify problems and develop possible solutions concerng the Medicare home health
benefit , the Californa ORT Steering Commttee convened a meeting of representatives from
HCFA , the OIG, fiscal intermediaries, and the regional attorney s offce. Most of the
paricipants have been workig with Californa home health agencies (HHAs) since the
beginng of ORT. A few home health expert from other states were included to provide
different perspectives and to determe if the problems identified in Californa are also
problems in other ORT states.

During the meeting, attendees participated in each of thee different focus groups: licensing
and certification; coverage and payment policy; and medical review and quality of care. The
focus group format was used because it allows paricipants from different disciplines and
backgrounds to share , discuss" and deliberate their varied experiences and arve at some
agreement concerng problems and potential solutions. The goal of the sessions was to
maxime interaction among participants. Moderators were present to stiulate conversation
control the general flow and content of the discussion , transcribe , and summarize.

This report is a sumary of the issues and possible solutions discussed in the nie different
focus groups. The Californa ORT Steering Commttee recognies that a considerable amount
of work has been done by HCFA and others to identify and correct deficiencies in the home
health benefit and that some of the thgs mentioned in ths report may be redundant.
Neverteless, we believe the concern are stil valid and need to be addressed as quickly as
possible though changes in law , regulation , or policy. We would also like to caution the
reader that, because participants were asked to be creative and not restricted by their
paradigms , some of the suggested solutions may seem iconoclastic or unrealistic.
Neverteless, they are wort considering and evaluating, since they represent the combined
thg      of a group of people who are deeply concerned about the integrity and financial
viabilty of the Medicare program and , specifically, its home health benefit.

The report consists of several general fmdings, each of which includes numerous
problems/vulnerabilties. The fmdings are intended to give some organiation to the report
although they are inter-related and some of the problems/vulnerabilties overlap. Imediately
following the list of vulnerabilties is a list of suggested solutions. Next to each suggested
solution is a symbol indicating if the solution requires a legislative change or if it can be
accomplished by HCF A though a regulatory or policy change.

HCFA	 The " HCFA" symbol mean that a change in HCFA policies and/or regulations is

           necessary .


           The " Bil" symbol means legislation is necessary.
THE CERTIFICATION PROCESS DOES NOT PREVENT PROBLEM PROVIERS
FROM ENTRIG          AN RE-ENTERIG THE MEDICAR PROGRA
One of the best ways to reduce fraud, waste , and abuse in the Medicare program is by assuring
that only home health agencies with experience in the provision of health care , who are fiscally
sound and responsible, can obtain Medicare certification. If more resources and more
stringent requirements were par of the certification and recertification process , HCFA could
prevent dishonest and incompetent providers and their owners from entering the Medicare
program. Focus group participants rated the provider screenig and certification process as
one of the most importnt oversight functions for the Medicare program.

Currently, the licensing and certification process for HHAs is inadequate and ineffective. It is
too easy to enter the Medicare program. Anyone , regardless of business or health care
experience , can become a home health provider. Even individuals who have been part of
HHAs that have defrauded the governent , been decertified , or declared bankptcy (and stil
owe the program millons of dollars in overpayments) can figure out a way to bil and be paid
by Medicare. Because HCFA lacks the authority, resources, and tools to properly certify
home health agencies, nothg discourages, inbits , or prevents the same unscrupulous
entrepreneurs from continuing to take advantage of the Medicare program and its beneficiaries.

Problems IV ulnerabilties:

      The Standard Survey, which covers only about half of the conditions of
      participation, does not properly screen providers. There      are thee types of surveys
      for HHAs: a standard survey, a partial extended survey, and a full extended survey.
      The standard survey, performed at intial application and repeated for annual
      recertifications, covers only 5 of the 12 conditions of participation and 1 standard. The
      other surveys are performed only if the state identifies problems in the standard survey.

      HCFA makes certification and recertfication decisions too quickly. The HCFA does
      not tae enough time to consider all the aspects of each application and does not require
      that each item on the application be fully and accurately completed. This has resulted      in
      providers entering the Medicare program who should never have been certified.

      HH put up facades to pass the initial certifcation requirements. Often , HHAs
      hire temporary consultats who act as principals in the business until certification is
      granted. After certification , the consultants leave. The organiational structure
      changes, and the HHA operates without the basic business strcture required in HCFA'
      conditions of participation.

      It is too easy to reenter the Medicare program following decertfication and/or
      banuptcy. HHA owners have found ways to enter the program using new
      corporations, owners , and/or by setting up nurse registries that contract with certified
-.,"
-.,"


      HHAs to bil the program on their behalf.

      Tracking and identifying owners and their interests in other      HH is problematic.
      The current trackig system is manual, although an automated system is planned.
      Individuals with 5 percent ownership or more must be disclosed. An individual could
      own just under 5 percent in multiple HHAs and never be identified on disclosure forms.

      Instead of waiting for recertifcation, providers dissolve    their business and open as a
      new entity. The HCF A requires a reasonable assurance period , which is at the
      discretion of the HCF A regional office , before a decertified provider can re-enter the
      program. However, a new      entity does not have to follow these rules.

      Sanctioned providers reopen with relatives and/or friends as new owners. This is
      allowed because the sanction applies only to individuals.

     Banuptcy protects individuals from Government sanctions. Following bankptcy,
      individuals are free to start new corporate entities , since the bankptcy applies only to
     the defunct corporation.

     Contracting for services allows a decertified provider to reopen as a registry without
     Medicare certifcation. A registry can potentially bil though a certified HHA and
     receive Medicare payments though one or more HHAs.

Suggested Solutions:

HCFA	 Limit new providers to a conditional or provisional certification for 6 months or

          1 year. Certification should not be granted  until the HHA has demonstrated its

          abilty to meet all of the Medicare conditions of participation though an on-site

          medical review , an on-site audit , and a complete review of the HHA'

          organiational strcture.


          Require a prior track record.   For example, require that an HH is licensed and
          functionig for 6 month or longer before it can apply for Medicare certification.
          Requiring prior experience is good business. It' s okay to set arbitrary requirements
          to protect Medicare and its beneficiaries.

HCFA	 Limit the number of Medicare beneficiaries that the HHA can serve during the

          provisional certification period and never allow its Medicare patient load to exceed

          50 percent of its total business.


          Require applicants to post bonds. Bonding would eliminate providers with
_0,"
HCFA	
          inadequate financial resources as well as prior criminal records. Bonding builds in
          legitimacy and would elimnate some of the disreputable HHAs. Fly-by-night
.....

         agencies wouldn t be abie to get a bond and couldn t become Medicare providerso
         The bond should be at least $1 milion or equal to the anticipated Medicare
         receivables during the fIrst year of operation. If the HH receivables exceed the
         amount of the bond , the bond must be increased accordingly. If there are
         overpayments, HCFA should be able to recoup money from the bond or require that
         the amount of the bond be increased in order for an extended repayment plan to be
         approved. The bond should not be considered a reimbursable cost for cost report
         purposes. Note: The Medicare law allows bonding, but the provision has never
         been implemented.

HCFA
 Use the extended survey for all initial HHA certifications. Consider elimating
       deemed status " for any HHA.

HCFA
 Require imediate notification of changes in strcture , ownership, or principal
         offcers. (Current regulations require notification but are vague on timg and
         exactly what needs to be reported.

HCFA     If an HHA owner owes Medicare money, do not grant new certification until the
         debt is fully repaid.

         Require owners (board members and principals as well) to provide their Social
         Security numbers (SSNs). Expand the SSN requirement to imediate family
         members. (Medicare regulations already require some of this under program
         integrity disclosure requirements , but it's not enforced.

HCFA
 Impose penalties for failure to provide timely notification of changes in
      organiational structure, ownership, or principals.

HCFA
    If an HHA does not disclose ownership inormation , decertify it.
""0""
HCFA     Redo Form 1513 (disclosure form), and use it to set up a database. The HCFA
""0""    central offce should maintain the database , with regional offce access. Data
         elements for all owners should include: name , SSN , percent of ownership, prior
         convictions , naes. of other companies owned, overpayments written off, business
         failures, and prior decertifications. The HCFA should collect simar inormation
         on famly members and other principals in the business. The forms should be
         retained for 7 years (HCFA now purges much earlier).

         When HHAs are sold , require the new owners to assume outstanding debts and
         liabilties.
          Either don t allow contracting for services or allow contracting only with other
          Medicare certified agencies. Significantly limt the percentage of the business that
          can be contracted. For example , only allow one type of therapy to be contracted-out
          and require that all others services be provided by HHA employees.

THE OPEN-ENDED BENEFIT, BROADLY DEFIND BENEFICIAY ELIGmILITY
CRIRI, AN COST- BASED REIMUREl\NT SYSTEM CONTRIUTE TO
OVERUTILIZATION, ABUSE, AN               FRUD
Participants in the focus groups have found that the problems among home health agencies are
far more systemic and widespread than just the actions of a few rogue providers intent on
defrauding Medicare. In many instances, unclear , imprecise , or deficient regulations coupled
with confsing and complex guidelines predispose the program to fraud , abuse , and waste.
Participants commented that the program has been so open-ended since the liberalization of
benefits in 1989 that any unscrupulous entrepreneur can figure out how to become wealthy
without much effort.

Precious resources are wasted because the home health industr views the Medicare benefit as
long-term care , since there are no limts on the number or length of services. Participants
commented that the home health program defInitely funds long- term care at home , and "
tring to fIx a bad system. " One participant furter noted that private inurers pay for skilled
services , not personal care and that we need to separate skilled services from personal care
rendered by home health aides and limit benefits accordingly.

The current payment mechanism for home health , which is based on interim payments and cost
report settlements, does not discourage fraud , waste , and abuse. Paricipants complained about
the cost-based payment system and suggested that it is obsolete and should be abandoned in
favor of a more prudent reimbursement system.

ProblemslVulnerabilties:

      Exceptions to the definition of " homebound" are confusing and difficult to monitor.
      The defInition of homebound allows for such activities as attending church , runng
      errands , etc. The exceptions have been used by unscrupulous providers to challenge
      clear-cut determinations that services are not medically necessary.

      Unlike the SNF benefit, a prior stay is not required. Anyone can receive home health
      services without any prior hospital or outpatient stay. This allows HHAs to provide
      services to larger populations with less monitoring. Patients who might otherwise not
      need services are added to the rolls.

      The interpreted definition of par-time or intermittent care leads to overutilization
      by allowing an infinite number of visits. A 1989 court case led to a change in the
      interpretation of " part- time
                                and intermittent care " to " part-time il intermttent    care.
      This allowed HHAs to drastically increase the number of visits per patient.

      The long-term nature of the benefit, i. e., coverage of chronic cae, creates
      difficulties in determining which services are medicaly necessar and which are
      incidenta. The HCF A needs to decide if the home health benefit is going to focus
      post-acute episodes or chronic care. Providing long-term   care can blur the line between
      medically necessary services and more incidental services such as housekeeping. It         is

      extremely diffcult to prove services were not medically necessar unless multiple
      services are deemed inappropriate.

     Cost- based reimbursement systems do not provide incentives for providers to
     properly manage costs. Providers bil as often as they want and have no incentive to
     limt visits or costs. Other payment caps, such as the part B limit on physical therapy,
     drive providers into the home health business.

Suggested Solutions:

HCFA      Define a home health visit. How much of the visit can involve incidental services?
""IO
HCFA      Define criteria for discharging patients from home care.
""1o
HCFA      Require that HHAs bil based on increments of hours or portions of hours rather
""1o      than per visit. Develop and implement a fee schedule for visits. Pay an hourly rate.



HCFA      Offer bonuses for meeting rehabiltation goals compared to open-ended therapies.
""1o
          Adopt managed care for the home health benefit.

          Impose a cap on reimbursement and/or the number of visits.

          Develop and implement a prospective payment system. Although ths system would
          address the cost of home health services , it would not solve the problem of
          determing eligibilty (Le. , is the patient homebound?).

HCFA      Consider competitive bidding as a long-range solution. Overutilization is a much
""1o      bigger issue than fraud. The long- term solution is selective contracting though
          competitive bidding. Legislative authority already exists , and precedents have been
          set. Competitive bidding is already being used for durable medical equipment
          laboratories , and coronary bypass surgery on a demonstration basis. NOTE:
          Californa s Medicaid program shifted from cost reimbursement to competitive
          bidding for acute hospitals. It was diffcult to do , but it revolutionied the program.
THE LACK OF PHYSICIAN AN BENEFICIARY INOLVEMENT
ACCOUNTABILITY HAS CONTRIUTD SIGNIFICANLY TO
OVERUTILIZATION AN ABUSE

Relying on physician to oversee the medical necessity and delivery of home health services
has been entirely ineffective. The home health benefit anticipates that physicians wil act
gatekeepers. Physicians are supposed to certify initial plan of care , periodically review
treatment plans, and review and recertify the entire plan every 62 days. The expectation is that
physicians wil help control utilization by monitoring beneficiar eligibilty and the medical
necessity of services. To encourage this , in January 1995 , HCFA began paying physicians for
reviewing these plans of care (paC). Unfortnately, this system is not working, and
physicians are not acting as gatekeepers but instead are unwittingly or knowingly helping
unscrupulous operators defraud and abuse Medicare.

Most beneficiaries, with a minum amount of education , adequate inormation , and some
incentive , can effectively monitor their own health care. However , for the home health
benefit , beneficiaries receive no inormation regarding the number , type , and cost of services
that have been biled for their care. Furtermore , they have no fmancialliabilty or
responsibilty. Essentially, beneficiaries are out of the loop. This lack of involvement by the
two groups closest to the actual delivery of services , beneficiaries and physicians , creates a
situation without suffcient checks and balances to deter and prevent fraud , waste , and abuse.

ProblemsN ulnerabilties:

      Physicians are not playing the role of gatekeeper as intended, or they are
      performing it perfunctorily, at best. Physicians are not aware of the requirements or
      simply do not care. They want the HHA to tae charge. The " attending " physician turns
      out to be any physician. Some agencies even shop around for physicians to perform
      certifications and recertifications.

      The regulations do not require that physicians see patients before signng POCs.
      Consequently, they may not see patients or even their medical char.

      Physician are not consulted when a patient' s condition changes (either positively or
      negatively) as required by HCFA. Physicians are not even contacted by HHAs;
      sometimes nurses wil change the orders.

      Some   Il     utilize "   boilerplate " POCs. Some respondents had no problem with an
      agency preparing the pac , but suggested that there should be an independent part
      authorizing services , such as an intermediary or independent regional organization.


      Beneficiaries do not have any financial liabilty , and they do not receive any
      information regarding the number and cost of services rendered. Unlike other
     services , beneficiaries have no concept of what is being biled to the Medicare program
     and have no fmancial incentive to limit the services they receive.

     The   ID do not promote independence by teaching beneficiaries, butself-care.
                                                                           HHAs
                                                                                   Many
     beneficiaries are able to provide some of their own basic health care
     discourage them from doing so. For example, diabetics , who have been injecting
     themselves with insulin for years, are encouraged by HHAs to let the home health
     agency perfonn the " procedure " when the beneficiary becomes Medicare-eligible.

Suggested Solutions:

           Strictly defme who can be considered the " attending physician " for home health.
-.IB
HCFA	
         The HCF A should require that the attending physician, who signs the P~C and
         recertification, is the physician who decided that the beneficiary needs home care.
         The HCF A could also require that the physician has an established relationship with
         the beneficiary as evidenced by Medicare claim preceding the date of the ;pac.


-.IB	
HCFA     Set  mium     stadards that require physicians to see the patient at , or near , the time,
         the pac is developed. In addition , the physician who signs the pac should be
         required to exame the beneficiary when he recertifies the pac to determe
         whether home health care is stil necessary.

         Establish a definite time limit between the physician examnation and the

-.IB
HCFA
         development of the P~C.


         Have independent certifiers review POCs.
-.IB
HCFA	
         Pay the physician for reviewing and signg the pac and require the physician to
-.IB
HCFA
         bil for recertifying. Not all physician currently bil. If there is no corresponding
         bil from the physician , Medicare should not pay for the services.


         Allow physician to' approve POCs for a limted number of visits. Once a
-.IB
HCFA
         beneficiary has received a certin level of benefits , require prior approval by an
         independent peer review entity for additional b nefits.

         Track physicians who are approving POCs to determe if their patterns warrant

-.IB
HCFA
         review. This would require including the physician UPIN on each claim.



           Offer bonuses or incentives to beneficiaries who are good managers of their own
-.IB
HCFA	
         health care needs.



           Have beneficiaries sign completed claim form,    nurses notes ,   or visit logs to

-.IB
HCFA
           acknowledge receipt of services.

 -.,"
 -.,"



 HCFA	 Send Explanation of Medicare Benefits (EOMBs) for home health care to the

       beneficiaries so that they can check for improper biling. Include the number of

       visits, dates, services rendered, and the dollar amount biled and paid.


 HCFA	 Unless an agency can prove a patient cannot learn self-care , limit the number of

       visits for certin diagnoses.


 HCFA	 Create an incentive for patients and their familes to reduce overutilization 

          requiring co-payments.



FEDERA OVERSIGHT ACTMTIES CANOT INSUR THAT HOME HEALTH
SERVICES AR MEDICALLY NECESSARY, OF AN ACCEPTABLE QUALITY OF
CAR, OR BILLED PRO PERL Y


After certification , Medicare imposes few controls on HHAs to assure that they retain qualified
staff, provide quality care , and bil appropriately. Medicalreview , cost report audits, and
recertifications have not proven to be effective means of controlling costs or utilization or
assuring the integrity of the benefit. Because these activities have not been adequately funded
neither state agencies nor fiscal intermediaries have been able to devote suffcient resources to
monitoring HHAs. Furtermore , most of the effort has been concentrated on postpayment
review which does not prevent the fraud , abuse , or waste from occurring.

ProblemsN ulnerabilties:

      Staff may not be properly licensed. The intial survey requires surveyors to verify that
      nurses are licensed. State surveyors   can access a toll- free telephone number to fmd out
      if a nurse is licensed; however , the verification does not occur each time a new nurse is
      hired. Furtermore , HHAs do not properly monitor contracted services , such as nursing
      registries. Certified HHAs are required to keep copies of contracted nurses ' and aides
      licenses, but this is not always done. Home health aides are a particular concern , since
      investigators have found that some of the aides are non- licensed undocumented aliens.

      Beneficiaries may be at risk, because nurses and home health aides have access to
      their homes. Medicare does not require background checks on HHA employees. This
      may endanger an already vulnerable population.

      Larger providers are difficult to monitor since branch offices can bil different fiscal
      intermediaries. The original intent was for nationwide companies with multiple
      locations to use Blue Cross of Iowa. But the use of multiple intermediaries by one
      company with several branches is not specifically prohibited.

               based reimbursement system, audits are the primary method of
      In a cost-
      monitoring providers; however, funding for on-site visits is limted and audits are
-.,"


     post- payment in nature. Without on-site audits, HHAs can commit fraud and stil
     appear legal and clean on the surface. Desk audits without detailed backup
     documentation frequently do not uncover inappropriately claimed costs, duplicate
     claims, claim for services not rendered , services that duplicate those provided by
     facilties, or falsified records. Funding for on-site visits has been very limted, and ths
     situation is furter complicated by the large distances between HHAs and their fiscal
     intermediaries. Often , inappropriate costs tae 2 to 3 years to disallow and , by that
     time , the company may have gone out of business.

     There is no systematic way to track nurses, aides, and physicians for biling
     purposes. Claims do not require license numbers and UPINs. Without ths
      information , prepayment edits are not possible.

     Duplicate services and bilings are common for home health services provided to
     residents of board and care facilties.   HHAs provide services for residents of board
     and care facilties and subsequently bil Medicare. In many states , part of the Medicaid
     per diem is supposed to cover these services. The Medicare fiscal intermediaries
     frequently do not know if a beneficiary is in a board and care facilty.

     Licensing and certifcation staff, medica review personnel, and cost report staff do
     not share information regarding problem individuals and agencies. Many HHAs
     with adminstrative and management problems also have cost report problems. Medical
     reviews are not as focused as they could be if there was coordination with licensing and
     certification staff.

     Kickbacks and self-referrals are commonplace in the home health industry.
     Doctors , board and care facilty adminstrators, and others receive kickbacks for
     referrals to HHAs and DME companes. In addition , HHAs bil Medicare for services
     provided to relatives and friends which may not even be rendered.

Suggested Solutions:

          Routinely review HHA records to ensure staff is properly licensed.
_0,"
HCFA	
          Complete crimal background checks on HHA employees who have access to

_0,"
HCFA
          patients' homes.


HCFA	 Develop a system to assure that registered nurses supervise home health aides

          biweekly, as the regulations require.


          Licensing and certification staff should coordinate findings with fiscal intermediary
_0,"
HCFA
          staff. There should also be cross-trainig.
-...

HCFA	 When possible, recertification surveys should be performed at the same time as on-
      site cost report audits to faciltate information sharing and coordinate fmdings.

HCFA	 Require same or related companies to deal with the same fiscal intermediar.

HCFA	 Until the structure of the program changes, there need to be more on-site reviews.
         Adequate funding should be provided. Responsible     fiscal intermediaries should be
         geographically closer to HHAs.

HCFA	 Require unique identifiers (UPIN , license , code) on claims for all providers
      physicians, therapists, nurses, and suppliers for whom services are being biled.
         Develop a database that would track the services provided by them.

HCFA	 Based on a statistical sample, fiscal intermediaries should interview physicians and
         beneficiaries to validate services.




HCFA	 Auditors should be taught how to identify services that are potentially medically
         unnecessary .


HCFA	 Fiscal intermediaries should be funded to conduct pre-payment medical review on
         new and problem HHAs.

HCFA	 Intermediaries should validate inormation in medical records.

HCFA	 Fiscal intermediary staff should be expected to search for kickbacks when they
         review claims and cost report.



HCFA	 Require nurses and aides to complete a trip or visit log and submit the log with the
         claim. The beneficiary should be required to sign the log.


HCFA	 Track beneficiaries who account for a large volume of HHA claim.

HCFA	 Develop and implement a prepayment claim edit that would limt the number of
      visits per day for nurses , aides , and therapists. Limt the number of consecutive
         days a nurse can work.

HCFA	 Identify subcontracted services on the claim form via a modifier.

HCFA	 Prohibit HHAs from biling for services rendered to relatives of either direct
         employees or contract staff (perhaps by expanding the Stark self-referral ban).

         Eliminate cost report.   Adopt a fee-for-service (based on a fee schedule) payment
         policy.
          Require the preparer of othe cost report to assume financial liabilty for its accuracy.
_olE
HCFA
          Require the owner of the HHA to sign the cost report.
_olE
HCFA
          Eliminate payments of home health benefits that duplicate services that are supposed
-.IE
HCFA
          to be provided by board and care facilities.

ID FACE FEW PENALTIES FOR NONCOMPLIANCE, FRAUD, OR ABUSE
Once an HHA has been certified , there is little that HCF A can do to penalize the agency and
its owners. Decertification is not easy since providers believe they have a " right" to do
business with Medicare and frequently use political infuence to prevent HCF A from      tag
any adverse action.

The HCFA has few administrative remedies at its disposal. Coordination with other agencies
such as the OIG and the United States Attorney s Offce , for criminal or civil investigation and
prosecution is very time-consumig and unproductive , unless the case is particularly ' egregious.
Therefore , the best way to address fraud and abuse in the home health area is to prevent it
from happening in the first place. However, in cases where ths is not possible, HCFA needs
stronger administrative penalties that it can impose timely and effectively.

Problems/Vulnerabilties:

      Providers fie late cost report,   often with signifcant overpayments. The  current
      requirement that HHAs submit cost report within 5 months of the end of the fiscal year
      is too lenient. Some providers do not even meet that deadline. Others never fie     their

      cost report.  Significant overpayments are rarely repaid when HHAs voluntarily
      terminate or go out of business.

      Fiscal intermediaries do not routinely stop payments to      ID that have cost report
      problems. Even     after costs have been disallowed, payments continue.

      Banuptcy protects providers from HCF A suspensions and sanctions. The court
      protect individuals and corporations that fie bankptcy. Unless fraudulent activity is
      proven , HCFA rarely recoups overpayments.

      Very few   ID are prosecuted. The likelihood of        prosecution is small. Investigators
      face many obstacles because of the extremely complex nature of home health cases.

      Judges are reluctant to impose penalties against corporations and their owners.

      Even when records are altered or falsifed, Adminstrative Law Judges (ALs)
      frequently rule in favor of   ID.
     Providers sell patient lists Without fear of kickback penalties. Kickback cases     are

     diffcult to prove and rarely result in crimal prosecution.

     Providers use contracting to avoid liabilty.   HHAs attempt to shield themselves from
     prosecution and penalties by claiming that they are not responsible for contracted
     employees (such as nurses and therapists) who submit false charge slips.

Suggested Solutions:

         Toughen penalties/sanctions for non-compliance. Penalties should be simlar to
         those established in the Clinical Laboratory Improvement Amendments (CLIA).
         Under CLIA, an owner who is sanctioned (decertified for quality of care reasons) is
         prohibited from providing 
 any health service to Medicare beneficiaries for 2 years.

HCFA     Require timely filing of cost report. Shorten current requirement from 5 to

IE .     3 months. If a cost report is late , HCFA should begin decertification proceedings

         and withold future Medicare     payments.



HCFA     Fiscal intermediaries should discontinue payments to HHAs when overpayments are
IE.""    discovered though cost report audits or sample claims reviews. As mentioned
         earlier , a bond should be required if an HHA is granted an extended repayment
         plan.

          Permt administrative sanctions against individuals. This would avoid having to go
          though the conviction process.

         Add a threshold amount (for example , $5, 000 in disallowed claims), before a
         provider can request a hearing before an AU.

          Make selling or trading patient lists ilegal.

          HHAs should be automatically excluded from Medicare when they bil      for

          unlicensed branches. Exclusions should be for 10 years and should affect
          individuals as well as corporations.



          Penalties should be modeled after those of the Internal Revenue Service (IS). The
          IRS imposes 100 percent penalties in certin situations.

          Elimte periodic interim payments and require that HHAs bil no less than
          monthy.

          Contracting should be eliminated or limited.   HHAs should not be allowed to
          abrogate their responsibilty to assure that services are rendered.
